TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   While Improvements Continue in Contract
                    Negotiation Methods and Management
                    Practices, Inconsistencies Need to Be
                                  Addressed



                                           July 27, 2007

                              Reference Number: 2007-20-123




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  July 27, 2007


 MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES
                CHIEF INFORMATION OFFICER

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – While Improvements Continue in Contract
                               Negotiation Methods and Management Practices, Inconsistencies Need
                               to Be Addressed (Audit # 200620011)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) has established and is following adequate contract negotiation and management practices
 for systems development task orders.1 This review was part of the Treasury Inspector General
 for Tax Administration’s Fiscal Year 2006 Information Systems Programs audit plan for reviews
 on the adequacy and security of IRS technology.

 Impact on the Taxpayer
 The IRS awarded 21 Business Systems Modernization (Modernization) task orders during Fiscal
 Years 2005 and 2006 with a total contract funding
 amount of approximately $115 million.2 We determined
 the IRS needs to further refine contract negotiation and  Further improvements from
                                                           applying consistent contract
 management practices for its Modernization and non-      negotiation and management
 Modernization systems development task orders. It has    practices will assist the IRS in
 already achieved savings of nearly $3.7 million from      assuring taxpayer funds are
 implementing one of our prior recommendations.3                  spent wisely.
 Further improvements from applying consistent contract
 negotiation and management practices will assist the


 1
   See Appendix V for a glossary of terms.
 2
   Information obtained from IRS Office of Procurement reports. We did not verify the accuracy of this information.
 3
   See Appendix IV for further details.
                  While Improvements Continue in Contract Negotiation Methods
                     and Management Practices, Inconsistencies Need to Be
                                          Addressed



IRS in assuring taxpayer funds are being spent wisely and the goals of the Information
Technology Modernization Vision and Strategy Framework (IT Framework) are accomplished.

Synopsis
The Modernization and Information Technology Services organization and the Office of
Procurement have recognized the need to improve management of task orders for the
Modernization program and have emphasized the increased use of performance-based
contracting as one approach toward this improvement. Since our prior review,4 we determined
the IRS has made significant improvements. For example, it is preparing independent Federal
Government cost estimates, documenting negotiation priorities and strategies, and completing
negotiations timely.
While the Modernization and Information Technology Services organization and the Office of
Procurement continue to make improvements to contract negotiation and management practices,
further improvements can be made to select and document appropriate contract types by
1) balancing risk between the IRS and its contractors, 2) ensuring incentives and disincentives
are included in task orders when appropriate, and 3) improving documentation to justify the
contract type selected.
In addition, further improvements can be made to contract negotiation and management practices
by 1) improving the preparation and use of independent Federal Government cost estimates,
2) eliminating the use of Memoranda of Understanding, 3) consistently preparing and using
preaward timelines, and 4) monitoring contractors’ performance by consistently including
measurable performance standards in task orders and documenting contractors’ performance
against the standards.
In November 2005, the IRS released the draft IT Framework, which announced a change in the
way the IRS intended to accomplish its modernization. In the past, the IRS approach to
modernizing was an enormous development effort aimed at replacing its non-Modernization
systems. The IRS is now focusing on a flexible, more realistic approach that seeks to use
non-Modernization systems, as well as current and future information technology investments, to
accomplish modernization.
Prior to publishing the IT Framework, the Modernization and Information Technology Services
organization and the Office of Procurement invested significant time and effort establishing
internal controls related to Modernization projects. Now that the IRS is using both
Modernization and non-Modernization systems to accomplish modernization as part of the


4
 While Many Improvements Have Been Made, Continued Focus Is Needed to Improve Contract Negotiations and
Fully Realize the Potential of Performance-Based Contracting (Reference Number 2005-20-083, dated May 2005).
                                                                                                               2
               While Improvements Continue in Contract Negotiation Methods
                  and Management Practices, Inconsistencies Need to Be
                                       Addressed



IT Framework, there is a need to review internal controls to determine whether some of the
Modernization contract negotiation and management internal controls should be expanded to
non-Modernization systems development activities.

Recommendations
We recommended the Chief Information Officer and the Chief, Agency-Wide Shared Services,
ensure an appropriate balance of risk between the IRS and its contractors, improve preaward
processes, improve monitoring of contractor performance, and improve consistency of contract
negotiation and management practices between Modernization and non-Modernization systems
development task orders.

Response
IRS management agreed with the recommendations. Corrective actions planned or taken include
continuing to evaluate the use of firm fixed-price contracts; emphasizing the use of
performance-based acquisitions; providing training opportunities; collecting and reviewing
lessons learned from the use of independent estimates developed by the Estimation Program
Office; tailoring the Total Information Processing Support Services Performance Work
Statement template to meet each of the Enterprise Life Cycle milestones based on customers’
needs; ensuring Modernization projects consistently prepare performance monitoring plans and
all organizations are aware of the information available on the IRS Procurement Intranet site;
assessing the need for multiyear funding and adding the appropriate amount of Information
Technology Modernization Vision and Strategy funds into the 2-year budget appropriation; and
establishing criteria for applying Modernization contract negotiation and management practices
to non-Modernization systems development activities. Management’s complete response to the
draft report is included as Appendix VII.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                               3
                      While Improvements Continue in Contract Negotiation Methods
                         and Management Practices, Inconsistencies Need to Be
                                              Addressed




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Significant Improvements Have Been Made in Contract
          Negotiation and Management Practices........................................................Page 3
          Further Improvements Are Needed in the Selection and
          Documentation of Appropriate Contract Types............................................Page 4
                    Recommendation 1:........................................................Page 9

          Further Improvements Are Needed for Preaward Processes ........................Page 10
                    Recommendation 2:........................................................Page 12

          Further Improvements Are Needed in Monitoring Contractor
          Performance ..................................................................................................Page 12
                    Recommendation 3:........................................................Page 14

          While Actions Are Being Taken to Improve Contracting
          and Management Practices Concerning Non-Modernization
          Development Projects, Additional Actions Need to Be Taken.....................Page 16
                    Recommendation 4:........................................................Page 18


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 20
          Appendix II – Major Contributors to This Report ........................................Page 23
          Appendix III – Report Distribution List .......................................................Page 24
          Appendix IV – Outcome Measure ................................................................Page 25
          Appendix V – Glossary of Terms .................................................................Page 26
          Appendix VI – Enterprise Life Cycle Overview ..........................................Page 32
          Appendix VII – Management’s Response to the Draft Report.....................Page 36
      While Improvements Continue in Contract Negotiation Methods
         and Management Practices, Inconsistencies Need to Be
                              Addressed




                     Abbreviations

IRS            Internal Revenue Service
                  While Improvements Continue in Contract Negotiation Methods
                     and Management Practices, Inconsistencies Need to Be
                                          Addressed




                                          Background

The Internal Revenue Service (IRS) is currently engaged in an effort, known as Business
Systems Modernization (hereafter referred to as Modernization), to modernize its systems and
associated processes. The Modernization program is a complex effort to modernize IRS
technology and related business processes. According to the IRS, this effort will involve
integrating thousands of hardware and software components.
The Modernization and Information Technology Services organization supports tax
administration within the IRS by delivering information technology services and solutions. The
Modernization and Information Technology Services organization and the IRS Office of
Procurement have recognized the need to improve management of task orders1 for the
Modernization program and have emphasized the increased use of performance-based
contracting as one approach toward this improvement. The goal of performance-based
contracting is to improve the value of contracted services by emphasizing objective, measurable,
mission-related requirements. Through performance-based contracting, the Federal Government
benefits by receiving better performance at lower cost with reduced administrative burdens,
while contractors benefit by having more control over their ability to earn profits based on
performance.
In March 2000, the IRS hired a contractor, Jefferson
Solutions, to teach IRS and contractor personnel how to              Federal Government contract
                                                                     negotiation and management
properly implement performance-based contracting
                                                                      practices continue to garner
concepts. Since that time, we have provided                         high-level concern. Comptroller
recommendations to improve contract management for                   General David Walker recently
the Modernization program. We issued a report in                        recommended the 110th
September 2002 concerning the use of                                Congress “. . . assess agencies’
                                                                          efforts to ensure that
performance-based contracting techniques to manage
                                                                     acquisitions are performance-
task orders for the Modernization program and whether                  and outcome-based, with
contract terms and requirements were being met.2 We                     appropriate risk-sharing
issued another report in May 2005 reflecting the                           contracts in place.”
improvements made in this area and indicating the
actions necessary for the Modernization program to fully
realize the potential of performance-based contracting.3

1
  See Appendix V for a glossary of terms.
2
  Additional Improvements Are Needed in the Application of Performance-Based Contracting to Business Systems
Modernization Projects (Reference Number 2002-20-170, dated September 2002).
3
  While Many Improvements Have Been Made, Continued Focus Is Needed to Improve Contract Negotiations and
Fully Realize the Potential of Performance-Based Contracting (Reference Number 2005-20-083, dated May 2005).
                                                                                                     Page 1
                While Improvements Continue in Contract Negotiation Methods
                   and Management Practices, Inconsistencies Need to Be
                                        Addressed


We made recommendations for improvement in the areas of 1) firm fixed-price task orders,
2) contract negotiation practices, and 3) monitoring contractor performance. Throughout the
remainder of this report, when we refer to our prior audit, we are referring to the May 2005
report.
Since our prior audit, the IRS began taking dramatic actions to restructure and redesign
significant areas within the Modernization program. Some examples include the IRS taking over
the role of systems integrator from the PRIME contractor, developing a new Information
Technology Modernization Vision and Strategy Framework (hereafter referred to as the
IT Framework), and changing its approach from completely replacing non-Modernization
systems to using non-Modernization systems to accomplish modernization.
This audit was conducted while changes were being made to how the IRS oversees and manages
its systems development projects. We communicated the interim results of our review and
suggestions for improvement to Modernization and Information Technology Services
organization and Office of Procurement officials on March 1, 2007. Any changes that have
occurred since we concluded our analyses are not reflected in this report. As a result, this report
may not reflect the most current status of contract negotiation methods and management
practices within the IRS.
This review was performed at the Modernization and Information Technology Services
organization facilities in New Carrollton, Maryland, during the period August 2006 through
March 2007. The audit was conducted in accordance with Government Auditing Standards.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




                                                                                             Page 2
                   While Improvements Continue in Contract Negotiation Methods
                      and Management Practices, Inconsistencies Need to Be
                                           Addressed




                                       Results of Review

Significant Improvements Have Been Made in Contract Negotiation
and Management Practices
Since our prior audit, the IRS has made significant improvements in the following areas:4
    •    Stakeholder Involvement in Pre-Negotiation Sessions and Tracking Pre-Negotiation
         Issues – The four acquisition teams that held pre-negotiation sessions ensured all
         stakeholders were present, which helps ensure negotiation objectives are achieved
         and negotiations are efficient. Also, the two acquisition teams with significant
         pre-negotiation issues documented and tracked the issues to resolution.
    •    Independent Federal Government Cost Estimates – The IRS has taken effective
         corrective actions to our prior audit recommendation to obtain independent Federal
         Government cost estimates (hereafter referred to as independent estimates). Independent
         estimates provide contracting officers with essential knowledge needed to evaluate and
         negotiate contract proposals. During this audit, we determined seven of the eight
         acquisition teams prepared an independent estimate. The team that did not prepare an
         independent estimate for Fiscal Year 2007 did prepare one for Fiscal Year 2008. In
         addition, one acquisition team provided written documentation that it realized a cost
         savings of nearly $3.7 million as a result of obtaining an independent estimate.5
    •    Negotiation Priorities and Strategies – The two acquisition teams that had significant
         negotiation issues documented their negotiation priorities and strategies. Documenting
         negotiation priorities and strategies provides acquisition teams with an overall framework
         to guide negotiations and achieve desired contracting results.
    •    Awarding Task Orders Timely – Three of four Modernization acquisition teams
         prepared a timeline and completed negotiations timely.
Several of these areas display significant improvement over the results from our prior audit.
Figure 1 provides a comparison of the results from our current audit with the results of our prior
audit for the most significantly improved areas.




4
  This is based on our review of a sample of eight task orders. All areas we reviewed were not applicable to all task
orders. See Appendix I for details on the sample.
5
  See Appendix IV for details.
                                                                                                              Page 3
                     While Improvements Continue in Contract Negotiation Methods
                        and Management Practices, Inconsistencies Need to Be
                                             Addressed


                  Figure 1: Significant Improvements in Contract Negotiation
                                   and Management Practices


                 Prior Audit Results                 Current Audit Results
                 Six of seven acquisition teams did  One of eight acquisition teams did
                 not prepare an independent          not prepare an independent
                 estimate.                           estimate.
                 Six of seven acquisition teams did  Both acquisition teams that had
                 not document negotiation priorities significant negotiation issues
                 and strategies.                     documented their negotiation
                                                     priorities and strategies.
                 All seven acquisition teams did not Three of four teams, required to
                 allow enough time for negotiations prepare a preaward timeline,
                 or did not budget for negotiations. prepared a timeline and completed
                                                     negotiations timely.
               Source: Prior audit results were obtained from our prior report. Current audit results
               are from our analysis of contract documentation for eight sampled task orders.

Further Improvements Are Needed in the Selection and
Documentation of Appropriate Contract Types
While the Modernization and Information Technology Services organization and the Office of
Procurement continue to make improvements to contract negotiation and management practices
for the Modernization program, further improvements can be made to 1) balance risk between
the IRS and its contractors, 2) ensure incentives and disincentives are included in task orders
when appropriate, and 3) improve documentation to justify the contract type selected.

The IRS needs to balance risk between itself and its contractors
The selection and use of appropriate contract types is an important part of the strategy for
successful acquisitions within the Modernization program. The Federal Acquisition Regulation
section on service contracting indicates a firm fixed-price performance-based contract is the
preferred contract type.6 In addition, the IRS has instituted internal controls to improve its
probability of signing firm fixed-price task orders for Milestones 4b and 5.7 In response to our
prior audit, the IRS indicated it would continue to address stabilizing requirements in the early
milestones (1 through 3) and use firm fixed-price contracting in the later milestones (4 and 5)



6
    48 C.F.R. § 16.202-1 (February 2007).
7
    See Appendix VI for an overview of the Enterprise Life Cycle.
                                                                                                        Page 4
                           While Improvements Continue in Contract Negotiation Methods
                              and Management Practices, Inconsistencies Need to Be
                                                   Addressed


where requirements are more stable and better defined. Firm fixed-price contract types place
upon the contractor maximum risk and full responsibility for all costs and resulting profit or loss.
While the use of firm fixed-price task orders in the overall Modernization program had been
trending upward, Fiscal Year 2006 showed a sharp decline in their use. We determined
6 (55 percent) of 11 task orders signed in Fiscal Year 2005 were full or partial firm fixed-price
task orders, while only 3 (30 percent) of 10 task orders signed in Fiscal Year 2006 were full or
partial firm fixed-price task orders. Figure 2 shows the results of our analysis of the use of firm
fixed-price task orders for Fiscal Years 1999 through 2006.
                           Figure 2: Firm Fixed-Price Task Orders by Fiscal Year

                  60.00%

                  50.00%

                  40.00%
     Percentage




                  30.00%                                                                Firm Fixed-Price
                                                                                        (Full and Partial)
                  20.00%

                  10.00%

                   0.00%
                           1999 2000 2001 2002 2003 2004 2005 2006
                                              Fiscal Year

     Source: Analysis of Office of Procurement Fiscal Years 1999 through 2006 task order lists as of
     August 2, 2006.

In addition to the decline in overall use of firm fixed-price task orders within the Modernization
program, we determined the IRS has struggled to sign firm fixed-price task orders for its
Modernization projects in Milestones 4b and 5. Acquisition project teams explained the
difficulties in signing firm fixed-price task orders were the result of several factors:
    •             One project team reported unstable requirements not only in Milestone 5 but also during
                  operations and maintenance.
    •             One project team reported release requirements were not defined and releases were not
                  associated with available funding.8



8
 The Modernized e-File Project Can Improve the Management of Expected Capabilities and Associated Costs
(Report Number 2007-20-005, dated December 27, 2006).
                                                                                                         Page 5
                 While Improvements Continue in Contract Negotiation Methods
                    and Management Practices, Inconsistencies Need to Be
                                         Addressed


    •   One project team reported several reasons for its            “Public sector officials and
        inability to sign a firm fixed-price task order,           representatives of government
        including requirements not being fully developed            contractors testified that the
                                                                  government frequently is unable
        or agreed to.9                                                to define its requirements
While the Enterprise Life Cycle specifies firm                      sufficiently to allow for fixed
                                                                           price solutions.”
fixed-price is the preferred contract type and emphasizes
its use in Milestones 4b and 5, we determined overall                   Report of the Acquisition
use of firm fixed-price is decreasing and task orders in           Advisory Panel to the Office of
the later milestones are still encountering barriers to firm      Federal Procurement Policy and
fixed-price contracting, such as lack of stable                       the United States Congress
requirements.
When use of a firm fixed-price task order is not possible, the IRS should attempt to balance some
risk with the contractor. However, the IRS often signs cost-plus-fixed-fee task orders.
Modernization guidance states this type of task order provides relatively little in the way of
positive performance incentives to the contractor while maximizing the Federal Government’s
obligation for cost and schedule management and performance. As a result, cost-plus-fixed-fee
task orders are the least preferred contract types. While Modernization guidance states there
should be few instances in which Modernization program requirements are so uncertain as to
necessitate the use of this task order type, we noted the majority of Modernization task orders
awarded in the last 2 fiscal years were cost-plus-fixed-fee task orders. Figure 3 provides a
summary of the Modernization contract type usage over the last 2 fiscal years.




9
 Focusing Management Efforts on Long-Term Project Needs Will Help Development of the Customer Account Data
Engine Project (Report Number 2006-20-076, dated June 2006).
                                                                                                  Page 6
                 While Improvements Continue in Contract Negotiation Methods
                    and Management Practices, Inconsistencies Need to Be
                                         Addressed


    Figure 3: Modernization Contract Type Usage Over the Last 2 Fiscal Years
      Contract Type                Pro                          Con            Percentage
        Contractor Bears the Risk of Nonperformance; Minimum Contract Administration
    Firm Fixed-Price   Places 100 percent         Difficult to make changes in   28.57%
                       responsibility and risk on the requirement after the
                       the contractor.            contract is awarded.
                       Encourages contractor
                       efficiency and economy
                       with minimum
                       administration.
              Federal Government and Contractor Share the Risk of Nonperformance;
                                      Heavy Contract Administration
    Cost-Plus-             Encourages economic,           Heavy burden on both                  4.76%
    Incentive-Fee          efficient, and effective       contracting and technical
                           performance when cost          personnel to ensure
                           reimbursement type of          contractor personnel use
                           contract is necessary.         efficient methods and
                                                          effective cost control.
                 Federal Government Bears the Risk of Contractor Nonperformance;
                                      Heavy Contract Administration
    Firm Fixed-Price       Price and level of effort are No guarantee that desired             14.29%
    Level of Effort        set.                           results will be achieved.
                                                          Heavy technical
                                                          administration burden on the
                                                          Federal Government to
                                                          ensure results are achieved.
    Cost-Plus-Fixed-       May proceed with general       Minimum incentive to the             52.38%
    Fee                    scope and indefinite           contractor for cost control
                           specifications.                with Federal Government
                                                          monitoring required to
                                                          ensure contractor personnel
                                                          use efficient methods and
                                                          effective cost control.
  Source: Treasury Inspector General for Tax Administration analysis of Modernization contract type usage
  for Fiscal Years 2005 and 2006.

If the IRS does not balance risk with its contractors, there will be insufficient incentive for the
contractors to perform well and little assurance that taxpayer funds are being spent wisely.

The IRS needs to focus on ensuring incentives and disincentives are included in task
orders when appropriate
When the IRS is unable to shift risk to contractors, it can use financial and performance
incentives to motivate contractors to effectively manage cost and results. The Federal




                                                                                                       Page 7
                   While Improvements Continue in Contract Negotiation Methods
                      and Management Practices, Inconsistencies Need to Be
                                           Addressed


Acquisition Regulation10 states positive incentives, negative incentives, or both should be
included in every contract to promote contract efficiency and maximize performance. Also,
recent Senate Appropriations language required adequate clauses to be “. . . included to allow the
agency to seek appropriate consideration (e.g., fee reduction or withholding, price reductions) if
contractor performance fails to meet contract requirements.” While this language was never
passed, we are aware the IRS intends to be responsive to Congress’ concerns.
Over the last 2 years, the IRS has signed 2 (9.5 percent) of 21 Modernization task orders with
incentives.11 We did not identify any disincentives in the task orders we reviewed. Developing
and negotiating measurable rewards/penalties is a difficult and time-consuming process;
therefore, Federal Government agencies have continued to struggle to develop measurable
performance standards and the incentives and disincentives associated with those standards. In
addition, the IRS has stated in the past it believed the use of disincentives would not necessarily
ensure more timely delivery of projects and would lead to an adversarial relationship between
itself and its contractors. Without incentives or disincentives, contractors may not perform well
and may not be held accountable for not performing well.
Management Actions: At the December 14, 2006, Modernization and Information Technology
Services Enterprise Governance Committee meeting, a presentation was given stating that
procedures were augmented to ensure “adequate clauses [are] included to allow the agency to
seek appropriate consideration (e.g., fee reduction or withholding, price reductions, etc.) if
contractor performance fails to meet contract requirements.” Fee reduction, fee withholding,
price reductions, etc. are examples of disincentives. We determined the procedures were never
augmented because the Office of Procurement determined standard Federal Acquisition
Regulation performance clauses were already available to accomplish the intent of ensuring
contractors are held accountable for poor performance. We were informed the Applications
Development organization has formed a team, known as the Contracts Management Liaison and
Exhibit 300 Team, to identify and gain insight into the contracting needs of major systems
development projects within the Applications Development organization. This Team plans to
review existing task orders, including use of standard Federal Acquisition Regulation language,
to identify improvement opportunities and followup actions.

The IRS needs to improve documentation justifying the type of contract chosen
The Federal Acquisition Regulation requires a justification to be documented when a contract
type, other than firm fixed-price, is chosen.12 The IRS accomplishes this through the preparation
of a Determination and Findings Document.



10
   48 C.F.R. § 37.602(b) (Amended February 2007).
11
   The two incentive task orders include one cost-plus-incentive-fee task order and one cost-plus-fixed-fee with
performance incentive task order.
12
   48 C.F.R. § 16.103(d) (Amended February 2007).
                                                                                                             Page 8
                While Improvements Continue in Contract Negotiation Methods
                   and Management Practices, Inconsistencies Need to Be
                                        Addressed


Three of eight acquisition teams did not prepare these Documents, and two of eight project teams
prepared Documents that did not provide adequate justification for why the particular contract
type was chosen. Based on inconsistencies in the preparation of Determination and Findings
Documents, we determined there are no internal controls in place to ensure adequate Documents
are prepared when necessary.
Selecting the contract type is generally a matter for negotiation and requires the exercise of
sound judgment. Without detailed documentation, the IRS may not have full insight into why
particular contract types are chosen. If the appropriate contract type is not chosen, task orders
may not balance risk with the contractor or provide the contractor with the greatest incentive for
efficient and economical performance.

Recommendation
Recommendation 1: To ensure an appropriate balance of risk between the IRS and its
contractors, the Chief Information Officer and the Chief, Agency-Wide Shared Services, should:
   a. Determine how persistent barriers to firm fixed-price contracting within the
      Modernization program can be eliminated. For example, acquisition teams should review
      the criteria checklist included in the Selection of Appropriate Contract Types for
      BSM [Business Systems Modernization] Task Orders issued on November 1, 2005, to
      determine what actions can be taken to ensure firm fixed-price contracting is applicable,
      such as stabilizing requirements.
   b. Ensure improvements and training opportunities for the use of incentives and
      disincentives are identified and coordinate with other IRS organizations to encourage the
      use of incentives and disincentives for systems development task orders outside the
      control of the Modernization and Information Technology Services organization.
   c. Ensure Determination and Findings Documents are consistently prepared, as required by
      the Federal Acquisition Regulation, with adequate information to explain the reasoning
      for the choice of contract type.
       Management’s Response: The Chief Information Officer and the Chief,
       Agency-Wide Shared Services, agreed with this recommendation, responding that the
       IRS continues to evaluate the use of firm fixed-price contracts as required by the Federal
       Acquisition Regulation and in accordance with IRS guidelines. For example, on a
       number of occasions, the IRS has issued firm fixed-price contracts after the Physical
       Design has been developed rather than employing the previous practice of issuing a
       cost-plus type contract at an earlier stage of the systems development life cycle when the
       requirements have not yet been firmed up. The Business Rules and Requirements
       Management office issued a series of requirements development and requirements
       management standards and guidance effective for Modernization projects in March 2007.
       Having better documented and stabilized requirements helps projects plan and manage
                                                                                            Page 9
                    While Improvements Continue in Contract Negotiation Methods
                       and Management Practices, Inconsistencies Need to Be
                                            Addressed


          development-phase acquisitions going forward. The IRS continues to look for
          opportunities to employ firm fixed-price contracts on an ongoing basis.
          The Director, Procurement, emphasizes to Office of Procurement management the use of
          performance-based acquisitions to the maximum extent practicable, which includes the
          use of incentives and disincentives. In Fiscal Year 2006, the Treasury Acquisition
          Institute offered the following performance-based courses for procurement and program
          personnel in other IRS organizations:
              •    Seven Steps to Performance-Based Acquisition.
              •    Six Disciplines of Performance-Based Management.
          The Office of Procurement will provide training opportunities for IRS personnel through
          the Treasury Acquisition Institute but cannot require attendance at those courses.
          Individual managers make the determination based on employees’ work assignments and
          developmental needs.
          The Office of Procurement Quality Assurance Branch ensures the Determination and
          Findings Documents are in the files requiring solicitation/contract review. The Quality
          Assurance Branch has also issued reminder emails to operations offices to ensure they are
          continuously aware of this requirement for any award other than a firm fixed-price award.
          In addition, internal operating instructions include areas of reviews that will continue to
          be emphasized. The Quality Assurance Branch will issue another reminder email
          emphasizing the importance of adequate documentation in this area.

Further Improvements Are Needed for Preaward Processes
While the Modernization and Information Technology Services organization and the Office of
Procurement continue to improve compliance with contract negotiation and management
practices, further improvements can be made by 1) improving the preparation and use of
independent estimates, 2) eliminating the use of Memoranda of Understanding, and
3) consistently preparing and using preaward timelines.

The IRS needs to improve the preparation and use of independent estimates
The Federal Acquisition Regulation requires the initial negotiation position to be based on the
results of the contracting officer’s analysis of the offeror’s proposal, taking into consideration
technical analysis, factfinding results, and independent estimates.13 In addition, Department of
Defense practices state “Differences greater than 25% between the offered price and the
IGCE [independent Federal Government cost estimate] may indicate a serious disconnect
between what is being offered and the requirements. Contracting Officers should immediately

13
     48 C.F.R. § 15.406-1 (a) (Amended February 2007).
                                                                                             Page 10
                While Improvements Continue in Contract Negotiation Methods
                   and Management Practices, Inconsistencies Need to Be
                                        Addressed


notify acquisition managers for appropriate remedial action that may include . . . cost estimate
review, formal discussions . . . modification of the contract, or cancellation of the requirement.”
We determined 4 of the 7 independent estimates we reviewed were 25 percent greater than the
contractor proposal amount. Project officials informed us the independent estimates were not
always helpful because they were prepared either before major assumptions were changed or
after negotiations had already begun and did not always include a thorough analysis of costs and
assumptions. In addition, discussions with IRS officials indicate independent estimates could be
improved to be a more useful task order negotiations tool. Furthermore, the documentation we
reviewed indicated independent estimates were not always considered when determining whether
the contractor’s price was reasonable, resulting in the time and effort spent to create independent
estimates not always providing the intended benefit to the IRS.

The IRS should consider eliminating the use of Memoranda of Understanding
The Modernization Acquisition Package Development procedure provides guidance that
Memoranda of Understanding are to be prepared for PRIME contractor task orders and may be
prepared for task orders with other contractors as appropriate. The Memoranda are intended to
promote early common understanding between the IRS and contractors on the scope of the task
order.
We determined only one of three project teams required to prepare a Memorandum of
Understanding actually prepared one. Based on our review of existing internal controls, we
determined the information provided in the Memorandum duplicates other information required
to be prepared. In addition, the project team that prepared a Memorandum of Understanding did
not believe it provided any value. Since the information provided in the Memorandum
duplicates other information required to be developed, we determined there would be no adverse
effect to eliminating the requirement to prepare a Memorandum of Understanding.

The IRS needs to consistently prepare and use preaward timelines
Modernization procedures require the acquisition project teams to record planned and actual
dates associated with the activities required to award a task order or process a major modification
to an existing task order. The data are used by Modernization and Information Technology
Services organization and Office of Procurement management to track the progress of ongoing
preaward and modification activities. For the four sampled task orders required to have a
preaward timeline, two project teams did not prepare an adequate preaward timeline. Preaward
timelines were not completed due to changes in acquisition team personnel. If the IRS does not
record planned and actual pre-negotiation activities, it will be unable to track the progress of
ongoing preaward and modification activities.




                                                                                            Page 11
               While Improvements Continue in Contract Negotiation Methods
                  and Management Practices, Inconsistencies Need to Be
                                       Addressed


Recommendation
Recommendation 2: To improve preaward processes, the Chief Information Officer and the
Chief, Agency-Wide Shared Services, should:
   a. Collect and review lessons learned from the use of independent estimates to determine
      whether independent estimates can become a consistently more useful negotiations tool
      (e.g., ensuring estimates are obtained at the appropriate time).
   b. Eliminate the Memorandum of Understanding requirement included in the Acquisition
      Package Development procedure for Modernization task orders.
   c. Ensure estimated and actual preaward dates are consistently tracked.
       Management’s Response: The Chief Information Officer and the Chief,
       Agency-Wide Shared Services, agreed with this recommendation, responding that the
       IRS will collect and review lessons learned from the use of independent estimates
       developed by the Estimation Program Office, a branch in the Program Management
       Office Service. The Estimation Program Office will document findings from the review.
       The Business Integration organization is in the process of implementing changes to the
       estimation program for the remainder of Fiscal Year 2007 and through Fiscal Year 2008,
       based on reviews of existing processes as well as industry best practices. The resources
       associated with the estimation program are fully engaged in implementing these changes
       and applying the new processes to the creation of estimates during the remainder of
       Fiscal Year 2007 and through Fiscal Year 2008. The IRS will collect and review lessons
       learned from the new processes to gain the maximum benefit of the review; it plans to
       complete that review by March 1, 2009.
       The IRS has removed the Memorandum of Understanding requirement included in the
       Acquisition Package Development procedure for Modernization task orders.
       To ensure consistent tracking of estimated and actual preaward dates for systems
       development projects, the Treasury Information Processing Support Services Program
       Branch has enhanced the standard Acquisition Plan to better reflect estimated and actual
       preaward dates. The new tracking tool identifies the major milestones with both the
       planned and actual dates of completion.

Further Improvements Are Needed in Monitoring Contractor
Performance
While the Modernization and Information Technology Services organization and the Office of
Procurement continue to make improvements to fully implement performance-based contracting,
further improvements in contractor monitoring can be made by 1) consistently including


                                                                                        Page 12
                    While Improvements Continue in Contract Negotiation Methods
                       and Management Practices, Inconsistencies Need to Be
                                            Addressed


measurable performance standards in task orders and 2) documenting contractor performance
against the standards.

The IRS should focus on including measurable performance standards in task orders
The Federal Acquisition Regulation requires performance-based contracts for services to include
measurable performance standards (e.g., in terms of quality, timeliness, quantity) and the method
of assessing contractor performance against those standards.14 In addition, the Modernization
Performance Monitoring directive states performance-based contracting is the standard for all
Modernization task orders. In accordance with this directive, Modernization processes require
Modernization projects to use performance-based templates created by the Office of
Procurement.
Six (75 percent) of the 8 task orders we reviewed need improvement in the inclusion of
measurable performance standards. The project teams for four task orders used general
acceptance criteria instead of outcome-based performance standards, and no performance
standards were identified for two task orders.
Based on the inconsistent use of measurable performance standards, we determined there is no
internal control in place to ensure Modernization project teams use performance-based statement
of work templates as required. In addition, there were no approved performance-based statement
of work templates available for project teams using the Total Information Processing Support
Services contract at the time the task orders in our sample were prepared. Without measurable
performance standards, it is more difficult to monitor and measure contractor performance
against expected outcomes. As a result, expected outcomes may not be achieved.
Management Actions: The Office of Procurement has developed a performance-based statement
of work template for Total Information Processing Support Services task orders for
Milestones 3 and 4A. According to the IRS, the Applications Development organization will be
trained on the use of the new Total Information Processing Support Services template by this
summer. In addition, Office of Procurement officials informed us they are working on templates
for operations and maintenance. However, they have not begun work on templates for other
milestones. If templates had been used by personnel skilled in identifying and writing
measurable performance standards based on outcomes, we believe this would have assisted the
projects we reviewed that used the Total Information Processing Support Services contract.

The IRS needs to focus on documenting the monitoring of contractor performance
Performance monitoring is the key to ensuring contractors are performing in accordance with
stated outcomes and the Federal Government is receiving the desired results. The Performance
Monitoring for BSM [Business Systems Modernization] Task Orders directive requires the
preparation of a Task Order Monitoring Plan for all task orders prior to task order award. The

14
     48 C.F.R. § 37.601 (February 2007).
                                                                                         Page 13
                  While Improvements Continue in Contract Negotiation Methods
                     and Management Practices, Inconsistencies Need to Be
                                          Addressed


Plan provides a means to routinely verify that task order activities are completed in accordance
with requirements. In addition, the Task Order Monitoring process requires the IRS to document
contractor performance in the form of periodic contractor performance reports and documented
review findings in accordance with Task Order Monitoring Plans.
All Modernization task orders are required to have a Task Order Monitoring Plan. One of the
four Modernization task order acquisition teams did not prepare a Plan. All acquisition teams
provided evidence of consistent Federal Government involvement with the contractor during the
period of performance (e.g., attendance at periodic status meetings and review of contractor
progress reports). However, in many cases, the status meetings and progress reports did not
relate specifically to contractor performance standards or task order requirements.
Acquisition teams were not sure what documentation was necessary to record contractor
performance. In addition, the one team that did not prepare a Task Order Monitoring Plan could
not provide an explanation for the oversight. Without a Plan, specific task order monitoring of
cost, schedule, and quality may not be as effective. For example, a recent audit involving one of
the task orders from our review determined the contractor’s assignment of personnel was not
closely monitored by the IRS. As a result, the audit identified approximately $3.4 million in
questionable contractor charges.15

Recommendation
Recommendation 3: To improve monitoring of contractor performance, the Chief
Information Officer and the Chief, Agency-Wide Shared Services, should:
     a. Complete development of additional Total Information Processing Support Services
        performance-based statement of work templates to include all milestones.
     b. Ensure improvements and training opportunities for the use of performance standards are
        identified and coordinate with other IRS organizations to encourage the use of
        performance standards for systems development task orders outside the control of the
        Modernization and Information Technology Services organization.
     c. Ensure Modernization projects consistently prepare performance monitoring plans
        (e.g., Task Order Monitoring Plans, Quality Assurance Surveillance Plans).
     d. Collect and disseminate guidance for documenting contractor performance and
        coordinate with other IRS organizations to communicate the importance of documenting
        contractor performance for systems development task orders outside the control of the
        Modernization and Information Technology Services organization.



15
 Voucher Audit of the Information Processing Support Services Contract - TIRNO-00-D-00009 (Reference
Number 2007-10-050, dated February 27, 2007).
                                                                                                   Page 14
         While Improvements Continue in Contract Negotiation Methods
            and Management Practices, Inconsistencies Need to Be
                                 Addressed


Management’s Response: The Chief Information Officer and the Chief,
Agency-Wide Shared Services, agreed with this recommendation, responding that the
Total Information Processing Support Services Performance Work Statement template is
being tailored to meet each of the Enterprise Life Cycle milestones based on customers’
needs. The newly created Operations and Maintenance template was released as a draft
version on March 8, 2007. The template was further enhanced to incorporate
Milestones 2 through 6 on May 23, 2007. This replaces previous versions of the
template. The Treasury Information Processing Support Services Program Branch is
currently trying to identify a new requirement to use the Operations and Maintenance
template to work through any potential issues. After the template has been successfully
used and revised based on the lessons learned from the test acquisition, it will be used as
the standard Operations and Maintenance Performance Work Statement template. Once
the Operations and Maintenance template is finalized, the Treasury Information
Processing Support Services Program Branch will work with its customers to identify
whether any additional Performance Work Statement templates are needed to meet their
needs.
To ensure improvements and training opportunities for the use of performance standards
are identified and coordinate with other IRS organizations, the Office of Procurement
will continue to emphasize to Office Directors and Branch Chiefs the use of
performance-based acquisitions, which includes the Quality Assurance Surveillance Plan
that contains the measures and standards that must be monitored. This is emphasized in
the following courses: Seven Steps to Performance-Based Acquisition and Six
Disciplines of Performance-Based Management. Also, the Office of Procurement will
continue to emphasize this in the contracting officer’s training course.
The IRS agreed to ensure Modernization projects consistently prepare performance
monitoring plans (e.g., Task Order Monitoring Plans, Quality Assurance Surveillance
Plans) and will continue to work with projects to ensure implementation of current
policy. For Modernizations projects, the Enterprise Life Cycle requires project managers
to develop a Project Management Plan, which is a milestone exit requirement. The
Project Management Plan templates include sections for Configuration Management,
Task Order Monitoring, Quality Assurance, and other plans.
In Fiscal Year 2007, the IRS has continued to enhance and improve the governance and
project control of its Information Technology portfolio. As part of those improvements,
additional project oversight has been achieved through health assessments, expanded
project control reviews, and expanded governance by Executive Steering Committees.
Further improvements in Fiscal Year 2007 include expansion of governance boards at
levels below the Executive Steering Committees.
The Office of Procurement currently provides performance-based contracting best
practice guidance to IRS organizations via its Intranet site. In addition, the Office of

                                                                                     Page 15
                While Improvements Continue in Contract Negotiation Methods
                   and Management Practices, Inconsistencies Need to Be
                                        Addressed


       Procurement Office of Strategic Acquisition Initiatives held the Acquisition Planning
       Conference on March 21-22, 2007. This conference included an Acquisition Planning
       Seminar entitled, “The Six Disciplines of Performance-Based Management,” which
       provided information on performance monitoring.
       The Procurement Intranet site contains a “Performance-Based Service Acquisition”
       module and a “How To” module that links to Office of Federal Procurement Policy
       Guidance - Seven Steps to Performance-Based Acquisition and a performance-based
       statement of work template. The Office of Procurement will update the Intranet site to
       include links to sample monitoring plan templates under the “How To” module and the
       Procurement Forms, Reports, and Templates module. The “Performance-Based” module
       and the “How To” module will be updated to contain a link to the “The Six Disciplines of
       Performance-Based Management.”
       The IRS will ensure all organizations are aware of the information available on the Office
       of Procurement Intranet site and will add a question and answer to the Frequently Asked
       Questions emphasizing the importance of performance monitoring and referencing the
       performance-based information and monitoring plan templates. Also, a communication
       will be issued to inform all IRS employees that performance monitoring information is
       available through the Office of Procurement site.

While Actions Are Being Taken to Improve Contracting and
Management Practices Concerning Non-Modernization Development
Projects, Additional Actions Need to Be Taken
In November 2005, the IRS released the draft IT Framework, which announced a change in the
way the IRS intended to accomplish its modernization. In the past, the IRS approach to
modernizing was an enormous development effort aimed at replacing its
non-Modernization systems. The IRS recognized the need for an integrated approach to
enterprise modernization and is now focusing on a flexible, more realistic approach that seeks to
use non-Modernization systems, as well as current and future information technology
investments, to accomplish modernization.
Prior to publishing the IT Framework, the Modernization and Information Technology Services
organization and the Office of Procurement invested significant time and effort establishing
internal controls related to Modernization projects. Now that the IRS is using both
Modernization and non-Modernization systems to accomplish modernization as part of the
IT Framework, there is a need to review internal controls to determine whether some of the
Modernization contract negotiation and management internal controls should be expanded to
non-Modernization systems development activities.
The IRS is taking actions to improve contract negotiation and management practices concerning
non-Modernization systems development activities; however, some additional actions need to be

                                                                                          Page 16
                While Improvements Continue in Contract Negotiation Methods
                   and Management Practices, Inconsistencies Need to Be
                                        Addressed


taken. The IT Framework includes both Modernization and non-Modernization systems, and
multiple dependencies exist between them. However, there are also many non-Modernization
development activities that are low-cost and do not have a major impact on the IT Framework.
Therefore, it may not make sense to expand Modernization contract negotiation and management
practices to all non-Modernization systems.
In comparing Modernization contract negotiation and management practices with
non-Modernization systems development contract negotiation and management practices, we
identified several differences. The IRS is taking steps to close some of these gaps.
   •   Non-Modernization systems development projects use the Enterprise Life Cycle-Lite
       systems development life cycle, while Modernization projects use the full Enterprise Life
       Cycle.
   •   Non-Modernization systems development task orders are managed by schedule and not
       by milestone.
   •   Non-Modernization systems development task orders use work requests to define work
       versus performance-based statements of work generally used for Modernization projects.
   •   Non-Modernization systems development task orders are not required to prepare
       preaward timelines.
   •   Non-Modernization systems development task orders do not have a process in place to
       document and track pre-negotiation issues to resolution.
The IRS is in the beginning stages of the IT Framework and has not established formal criteria
providing guidance for contract negotiation and management practices for non-Modernization
systems development task orders. Further improvements from applying consistent contract
negotiation and management practices will assist the IRS in assuring taxpayer funds are being
spent wisely and the goals of the IT Framework are accomplished.
Management Actions: The IRS is taking several actions to close contract negotiation and
management gaps between Modernization and non-Modernization systems development task
orders. For example:
   •   While there are two main life cycle development        Further improvements from
       methodologies within the IRS, the Enterprise           applying consistent contract
       Life Cycle methodology used for the                   negotiation and management
                                                             practices will assist the IRS in
       Modernization program was recently updated to
                                                              assuring taxpayer funds are
       include other major projects, not just                        spent wisely.
       Modernization projects.
   •   The Office of Procurement has developed a
       performance-based statement of work template for the Total Information Processing
       Support Services contract, often used for current business system development. This
                                                                                          Page 17
                While Improvements Continue in Contract Negotiation Methods
                   and Management Practices, Inconsistencies Need to Be
                                        Addressed


       template includes performance standards and a surveillance plan for Milestones 3 and
       4A. While the Office of Procurement has developed the template, the Modernization and
       Information Technology Services organization has not updated its processes to require its
       use.
In addition, we, as well as other IRS officials, initially believed non-Modernization systems
development funding was available for only 1 year, while Modernization funding was available
for multiple years. The Director, Finance (Modernization and Information Technology
Services), informed us that non-Modernization systems development funding is available for
2 years and that she would clarify this fact in future budget guidance.

Recommendation
Recommendation 4: To improve consistency of contract negotiation and management
practices between Modernization and non-Modernization systems development task orders, the
Chief Information Officer and the Chief, Agency-Wide Shared Services, should:
   a) Ensure program and project managers are aware of the availability of multiyear funding
      for non-Modernization systems development, to further enable the use of firm fixed-price
      contracting.
   b) Ensure smaller, low-risk projects are not overburdened by excessive internal controls by
      establishing criteria (e.g., cost, risk, dependencies) for applying Modernization contract
      negotiation and management practices to non-Modernization systems development
      activities. Several practices that should be considered include:
       •   Use of the full Enterprise Life Cycle versus the Enterprise Life Cycle-Lite.
       •   Appropriate use of milestone-based, performance-based statements of work with
           performance standards and surveillance plans versus schedule-based work requests to
           define work.
       •   Preparation and tracking of estimated and actual preaward dates versus no
           requirement for tracking estimated and actual preaward dates.
       •   Documenting and tracking pre-negotiation issues to resolution versus no process to
           document or track pre-negotiation issues.
       Management’s Response: The Chief Information Officer and the Chief,
       Agency-Wide Shared Services, agreed with this recommendation, responding that the
       Modernization and Information Technology Services organization Financial Management
       Services organization will work with the Associate Chief Information Officers to assess
       their needs for multiyear funding and add the appropriate amount of Information
       Technology Modernization Vision and Strategy funds into the 2-year budget
       appropriation. In addition, the IRS will assess whether the amount should be adjusted at

                                                                                          Page 18
        While Improvements Continue in Contract Negotiation Methods
           and Management Practices, Inconsistencies Need to Be
                                Addressed


the start of each Budget Cycle. This procedure will be documented in the Budget Cycle
document by October 12, 2007, to communicate this change to program and project
managers.
To ensure smaller, low-risk projects are not overburdened by excessive internal controls
by establishing criteria (e.g., cost, risk, dependencies) for applying Modernization
contract negotiation and management practices to non-Modernization systems
development activities, the IRS issued Interim Guidance, signed by the Chief Information
Officer and dated May 15, 2007, which establishes that the full Enterprise Life Cycle will
supersede the Enterprise Life Cycle-Lite.
The Treasury Information Processing Support Services Program Branch has established
Standard Operating Procedures and created templates to streamline the acquisition
process. These processes are in a constant state of evaluation and improvement to
provide the best customer service, while ensuring the high quality of services being
acquired. Smaller, low-risk projects use these same procedures to acquire a higher level
of service without the impact to their schedules and without excessive internal controls.
The Treasury Information Processing Support Services Program Branch is committed to
increasing the use of performance-based acquisitions. The use of appropriate
milestone-based performance work statements is facilitated by the Treasury Information
Processing Support Services Templates, expert contractor support, and additional training
for the staff. The Program Branch is trying to move from level of effort, work
request-driven task orders, wherever practicable, to provide more fixed-price completion
activities, in an effort to better serve the customers’ needs and manage funds more
effectively.




                                                                                  Page 19
                  While Improvements Continue in Contract Negotiation Methods
                     and Management Practices, Inconsistencies Need to Be
                                          Addressed


                                                                                            Appendix I

         Detailed Objective, Scope, and Methodology

The overall audit objective of this review was to determine whether the IRS has established and
is following adequate contract negotiation and management practices for systems development
task orders. To accomplish our audit, we identified the internal controls and criteria used as
guidance for the negotiation and management of task orders. These internal controls and criteria
include the guidance provided by the Federal Acquisition Regulation and Modernization
directives and processes. To accomplish our objective, we performed the following steps using a
judgmental sample of task orders (see Sample Selection Methodology section below):
I.      Determined whether the corrective actions taken by the IRS in response to
        recommendations in our prior audit1 for the use of firm fixed-price task orders have been
        effective.
        A. Determined whether Determination and Findings documents were prepared and
           included sufficient detail.
        B. Interviewed IRS officials to determine what barriers kept the IRS from negotiating
           firm fixed-price task orders.
II.     Determined whether the corrective actions taken by the IRS in response to
        recommendations in our prior audit for contract negotiation best practices have been
        effective. Determined whether:
        A. All stakeholders attended negotiation sessions.
        B. Independent Federal Government cost estimates were prepared for each task order.
        C. A Memorandum of Understanding was prepared and pre-negotiation issues were
           tracked.
        D. Negotiation priorities and strategies were documented.
        E. Negotiations were completed timely.




1
 While Many Improvements Have Been Made, Continued Focus Is Needed to Improve Contract Negotiations and
Fully Realize the Potential of Performance-Based Contracting (Reference Number 2005-20-083, dated May 2005).
                                                                                                    Page 20
                   While Improvements Continue in Contract Negotiation Methods
                      and Management Practices, Inconsistencies Need to Be
                                           Addressed


III.    Determined whether the corrective actions taken by the IRS in response to
        recommendations in our prior audit for monitoring contractor performance have been
        effective.
        A. Determined whether performance standards included appropriate
           incentives/disincentives.
        B. Compared monitoring results to task order requirements.
IV.     Determined whether the IRS was applying contract negotiations and management
        practices consistently across Business Systems Modernization (Modernization) and
        non-Modernization projects.
Sample selection methodology
The IRS awarded 21 Modernization task orders during Fiscal Years 2005 and 2006 with a total
contract funding amount of approximately $115 million.2 We selected a sample of 4 (19 percent)
of 21 Modernization task orders that were active in Fiscal Year 2006. We also selected
4 (15 percent) of 26 non-Modernization systems development task orders that were active in
Fiscal Year 2006. We selected four Modernization task orders based on contract type and four
non-Modernization task orders based on contract amount. We judgmentally selected the eight
task orders because we were not going to project the results to the entire population. Figure 1
presents information on the eight task orders sampled.
                                    Figure 1: Task Order Sample

                                             Original Contract
           Project Name                      Award Amount3               Original Period of Performance
                                       Modernization Task Orders
Integrated Financial System                     $19,500,000.00          February 1, 2005 – November 30, 2005
Milestone 5
Systems Integration Support Services            $14,288,952.00          November 10, 2005 – November 9, 2006

Business Rules Support                           $1,544,254.00          January 2, 2006 – January 1, 2007

Filing and Payment Compliance –                  $1,500,000.00          August 15, 2005 – February 27, 2007
Milestone 3, 4A




2
 Information obtained from IRS Office of Procurement reports. We did not verify the accuracy of this information.
3
 Information obtained from an Office of Procurement list of task orders. The accuracy of this information was not
verified.
                                                                                                        Page 21
                    While Improvements Continue in Contract Negotiation Methods
                       and Management Practices, Inconsistencies Need to Be
                                            Addressed



                                               Original Contract
            Project Name                       Award Amount3           Original Period of Performance
                       Non-Modernization Systems Development Task Orders
 Compliance Data Environment                       $3,433,417.00       April 25, 2006 – April 24, 2007

 Corresponding Imaging System –                    $2,238,001.00       August 15, 2005 – August 14, 2006
 Release 2
 Examination Desktop Support                       $5,792,405.00       August 11, 2006 – August 10, 2007
 System – Release 2
 Tax Exempt/Government Entity                      $2,492,186.37       August 14, 2006 – August 13, 2007
 Returns Inventory and Classification
 System Compliance Decision
 Analytics
Source: Office of Procurement task order lists as of August 2, 2006.




                                                                                                         Page 22
               While Improvements Continue in Contract Negotiation Methods
                  and Management Practices, Inconsistencies Need to Be
                                       Addressed


                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary Hinkle, Director
Troy Paterson, Audit Manager
Phung-Son Nguyen, Acting Audit Manager
Suzanne Noland, Acting Lead Auditor
Paul Mitchell, Senior Auditor
Bruce Polidori, Senior Auditor
Wallace Sims, Senior Auditor




                                                                                     Page 23
              While Improvements Continue in Contract Negotiation Methods
                 and Management Practices, Inconsistencies Need to Be
                                      Addressed


                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Applications Development OS:CIO:AD
Associate Chief Information Officer, Enterprise Services OS:CIO:ES
Director, Procurement OS:A:P
Director, Stakeholder Management OS:CIO:SM
Deputy Associate Chief Information Officer, Applications Development OS:CIO:AD
Deputy Associate Chief Information Officer, Business Integration OS:CIO:ES:BI
Deputy Associate Chief Information Officer, Systems Integration OS:CIO:ES:SI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Controls OS:CFO:CPIC:IC
Audit Liaisons:
       Associate Chief Information Officer, Applications Development OS:CIO:AD
       Associate Chief Information Officer, Enterprise Services OS:CIO:ES
       Director, Procurement OS:A:P
       Director, Program Oversight Office OS:CIO:SM:PO




                                                                                 Page 24
                  While Improvements Continue in Contract Negotiation Methods
                     and Management Practices, Inconsistencies Need to Be
                                          Addressed


                                                                                            Appendix IV

                                    Outcome Measure

This appendix presents detailed information on the measurable impact a prior recommendation
has had on tax administration. This benefit will be incorporated into our Semiannual Report to
Congress.

Type and Value of Outcome Measure:
•   Cost Savings – Actual; $3,682,729 (see page 3).

Methodology Used to Measure the Reported Benefit:
The Federal Acquisition Regulation requires the initial negotiation position to be based on the
results of the contracting officer’s analysis of the offeror’s proposal, taking into consideration
technical analysis, factfinding results, and independent Federal Government cost estimates.1 In
our May 2005 report,2 we found the IRS may not have been obtaining requested services at a fair
and reasonable cost because independent cost estimates were not required by Business Systems
Modernization processes. We recommended the IRS promote consistent application of best
practices by obtaining independent cost estimates.
As part of our current review, the acquisition team for the Customer Account Data Engine
Release 3 project provided written documentation that it realized a cost savings of $3,682,729
from obtaining an independent estimate. The cost savings originated from eliminating
unnecessary travel of $250,000, reducing the number of full-time employees that were proposed,
and comparing the skill mix proposed to the scope of work required.3




1
   48 C.F.R. § 15.406-1 (a) (Amended February 2007).
2
  While Many Improvements Have Been Made, Continued Focus Is Needed to Improve Contract Negotiations and
Fully Realize the Potential of Performance-Based Contracting (Reference Number 2005-20-083, dated May 2005).
3
  Information obtained from the Customer Account Data Engine acquisition team. We did not verify the accuracy of
this information.
                                                                                                       Page 25
                While Improvements Continue in Contract Negotiation Methods
                   and Management Practices, Inconsistencies Need to Be
                                        Addressed


                                                                          Appendix V

                           Glossary of Terms

Term                                  Definition
Applications Development              The Applications Development
                                      organization was created from the prior
                                      Business Systems Development and
                                      Business Systems Modernization Office
                                      organizations to eliminate gaps and
                                      overlaps that existed throughout the
                                      development cycle. The Business
                                      Systems Development organization was
                                      responsible for defining, building, testing,
                                      delivering, and maintaining integrated
                                      information applications systems that help
                                      achieve the business vision and objectives
                                      of the IRS. The Business Systems
                                      Modernization Office was responsible for
                                      acquiring and delivering new computer
                                      hardware and software for the IRS’
                                      modernized business processes.
Best Practice                         A best practice is a technique or
                                      methodology that, through experience and
                                      research, has proven to reliably lead to a
                                      desired result.
Business Rule                         A business rule is a statement that defines
                                      or constrains some aspect of the business.
Business Rules Support                A business rules support contract includes
                                      project-level support and program-level
                                      analysis activities to clearly define
                                      business rules, support the streamlining of
                                      the business rules methodology, and
                                      develop templates and practice guides that
                                      support project-level business rules
                                      development.


                                                                                     Page 26
                   While Improvements Continue in Contract Negotiation Methods
                      and Management Practices, Inconsistencies Need to Be
                                           Addressed



Term                                                  Definition
Compliance Data Environment                           The Compliance Data Environment
                                                      project will provide electronic data to
                                                      other examination systems, such as the
                                                      Examination Desktop Support System.
Correspondence Imaging System                         The Correspondence Imaging System
                                                      project will provide IRS customer service
                                                      representatives with the online ability to
                                                      view, forward, save, retrieve, print, and
                                                      manage incoming taxpayer inquiries.
Cost-Plus-Fixed-Fee Contract                          A cost-plus-fixed-fee contract is a
                                                      cost-reimbursement contract that provides
                                                      for payment to the contractor of a
                                                      negotiated fee that is fixed at the inception
                                                      of the contract. The fixed fee does not
                                                      vary with actual cost but may be adjusted
                                                      as a result of changes in the work to be
                                                      performed under the contract.
Customer Account Data Engine                          The Customer Account Data Engine is the
                                                      foundation for managing taxpayer
                                                      accounts in the IRS modernization plan.
                                                      It will consist of databases and related
                                                      applications that will replace the existing
                                                      IRS Master File1 processing systems and
                                                      include applications for daily posting,
                                                      settlement, maintenance, refund
                                                      processing, and issue detection for
                                                      taxpayer tax account and return data.
Enterprise Life Cycle                                 The Enterprise Life Cycle is a structured
                                                      business systems development method
                                                      that requires the preparation of specific
                                                      work products during different phases of
                                                      the development process.




1
 The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                          Page 27
               While Improvements Continue in Contract Negotiation Methods
                  and Management Practices, Inconsistencies Need to Be
                                       Addressed



Term                                   Definition
Enterprise Life Cycle-Lite             System development methodology for
                                       non-Business Systems Modernization
                                       systems development projects.
Examination Desktop Support System     The Examination Desktop Support
                                       System is a modernized system that will
                                       replace an antiquated report-generating
                                       system and will serve Small Business/
                                       Self-Employed Division tax return
                                       examiners working in both standalone and
                                       connected environments.
Federal Acquisition Regulation         The Federal Acquisition Regulation is
                                       established for the codification and
                                       publication of uniform policies and
                                       procedures for acquisitions by all
                                       executive branch agencies.
Filing and Payment Compliance          The Filing and Payment Compliance
                                       project will provide support for detecting,
                                       scoring, and working nonfiler cases (filing
                                       compliance) and delinquency cases
                                       (payment compliance).
Firm Fixed-Price Task Order            A firm fixed-price task order sets a price
                                       that is not subject to any adjustment
                                       because of cost overruns incurred by the
                                       contractor.
Information Technology Modernization   The Information Technology
Vision and Strategy Framework          Modernization Vision and Strategy
                                       Framework establishes a 5-year plan that
                                       drives investment decisions; addresses the
                                       priorities around modernizing front-line
                                       tax administration and supporting
                                       technical capabilities; and leverages
                                       existing systems (where possible) and new
                                       development (where necessary) to
                                       optimize capacity, manage program costs,
                                       and deliver business value on a more
                                       incremental and frequent basis.


                                                                                     Page 28
               While Improvements Continue in Contract Negotiation Methods
                  and Management Practices, Inconsistencies Need to Be
                                       Addressed



Term                                 Definition
Integrated Financial System          The Integrated Financial System is
                                     intended to address administrative
                                     financial management weaknesses. The
                                     first release of the Integrated Financial
                                     System included the Accounts Payable,
                                     Accounts Receivable, General Ledger,
                                     Budget Execution, Cost Management, and
                                     Financial Reporting activities.
Jefferson Solutions                  Jefferson Solutions is a division of
                                     Jefferson Consulting Group, Limited
                                     Liability Company, and has been
                                     designated by the Office of Federal
                                     Procurement Policy to provide training on
                                     performance-based contracting.
Milestone                            Milestones provide for “go/no-go”
                                     decision points in a project and are
                                     sometimes associated with funding
                                     approval to proceed.
Modernization and Information        This Committee is the highest level
Technology Services Enterprise       recommending and decision-making body
Governance Committee                 to oversee and enhance enterprise
                                     management of information systems and
                                     technology. It ensures strategic
                                     modernization and information
                                     technology program investments, goals,
                                     and activities are aligned with and support
                                     1) the business needs across the enterprise
                                     and 2) the modernized vision of the IRS.




                                                                                   Page 29
              While Improvements Continue in Contract Negotiation Methods
                 and Management Practices, Inconsistencies Need to Be
                                      Addressed



Term                                   Definition
Modernized e-File                      The Modernized e-File project develops
                                       the modernized, web-based platform for
                                       filing approximately 330 IRS forms
                                       electronically, beginning with the
                                       U.S. Corporation Income Tax Return
                                       (Form 1120), U.S. Income Tax Return for
                                       an S Corporation (Form 1120S), and
                                       Return of Organization Exempt From
                                       Income Tax (Form 990). The project
                                       serves to streamline filing processes and
                                       reduce the costs associated with a
                                       paper-based process.
Performance-Based Contracting          Use of performance-based contracting
                                       means structuring all aspects of an
                                       acquisition around the purpose of the
                                       work to be performed, with the contract
                                       requirements set forth in clear, specific,
                                       and objective terms with measurable
                                       outcomes.
Performance Standards or Criteria      Criteria used to measure the quality,
                                       timeliness, and cost of delivered products
                                       or services.
PRIME Contractor                       The PRIME contractor heads an alliance
                                       of leading technology companies brought
                                       together to assist with the IRS’ efforts to
                                       modernize its computer systems and
                                       related information technology.
Statement of Work                      A statement of work documents the work
                                       to be performed by the contractor, period
                                       of performance, performance standards,
                                       and special requirements.
Systems Integration Support Services   The Systems Integration Support Services
                                       task order has as an overall outcome: the
                                       effective and efficient integration of
                                       modernized business solutions into the
                                       IRS Enterprise.


                                                                                     Page 30
               While Improvements Continue in Contract Negotiation Methods
                  and Management Practices, Inconsistencies Need to Be
                                       Addressed



Term                                     Definition
Task Order                               A task order is an order for services
                                         planned against an established contract.
Task Order Monitoring Plan               A Task Order Monitoring Plan documents
                                         the responsibilities and criteria for
                                         collecting and documenting monitoring
                                         information (e.g., costs, timeliness, and
                                         quality of performance).
Tax Exempt/Government Entity Returns The Tax Exempt/Government Entity
Inventory and Classification System  Returns Inventory and Classification
Compliance Decision Analytics        System provides users access to return
                                     and filer information related to the filing
                                     and processing of employee plans, exempt
                                     organizations, and Government entities
                                     forms.
Total Information Processing Support     The Total Information Processing Support
Services                                 Services contract provides a broad range
                                         of information technology-related
                                         services.
Work Request                             A work request contains the specific
                                         details of the work to be performed in a
                                         task order including the skill categories,
                                         estimated number of hours, required work
                                         products, and acceptance criteria.




                                                                                      Page 31
                While Improvements Continue in Contract Negotiation Methods
                   and Management Practices, Inconsistencies Need to Be
                                        Addressed


                                                                                  Appendix VI

                     Enterprise Life Cycle Overview

The Enterprise Life Cycle is the IRS standard approach to business change and information
systems initiatives. It is a collection of program and project management best practices designed
to manage business change in a successful and repeatable manner. The Enterprise Life Cycle
addresses large and small projects developed internally and by contractors.
The Enterprise Life Cycle includes such requirements as:
   •    Development of and conformance to an enterprise architecture.
   •    Improving business processes prior to automation.
   •    Use of prototyping and commercial software, where possible.
   •    Obtaining early benefit by implementing solutions in multiple releases.
   •    Financial justification, budgeting, and reporting of project status.
In addition, the Enterprise Life Cycle improves the IRS’ ability to manage changes to the
enterprise; estimate the cost of changes; and engineer, develop, and maintain systems effectively.
Figure 1 provides an overview of the layers, paths, phases, and milestones (shown as “MS” in
Figure 1) within the Enterprise Life Cycle Framework.




                                                                                          Page 32
                                         While Improvements Continue in Contract Negotiation Methods
                                            and Management Practices, Inconsistencies Need to Be
                                                                 Addressed


                                                     Figure 1: Enterprise Life Cycle Framework
  Governance Management




                                                                                            Acquisition Management
                Layer




                                                                                             Program Management

                                                                                      Implementation Project Management
    Layer




                                                           MS0               MS1                MS2             MS3              MS4A         MS4B                MS5


                          Large Custom Path
                          Small Custom Path
  Solution Life Cycle




                          Commercial-Off-the-
                          Shelf Path             Vision and
                                                 Strategy /                           Domain                                          System           System       Operations and
         Layer




                          Joint Application                         Project                         Preliminary Detailed Design
                                                 Enterprise                         Architecture                                    Development      Deployment      Maintenance
                          Development /                        Initiation Phase                    Design Phase     Phase
                                                Architecture                           Phase                                           Phase           Phase            Phase
                          Rapid Application
                                                   Phase
                          Development Path
                          Iterative Custom
                          Path
  Methodology Solution




                                                Various Work    Various Work       Various Work    Various Work    Various Work     Various Work   Various Work
               Layer




                                                Products and    Products and       Products and    Products and    Products and     Products and   Products and
                                                  Reviews         Reviews            Reviews         Reviews         Reviews          Reviews        Reviews
     Layer




                                                                      Developer's Business Change or System Change Methodology



                                                                                  Enterprise Integration, Test, and Evaluation
  Specialty Areas




                                                                                  Business Rules Harvesting and Management
                                                                                             Transition Management
      Layer




                                                                                             Enterprise Architecture
                                                                                    Capital Planning and Investment Control
                                                                                              Security and Privacy
                                                                                  Requirements Development and Management

Source: Graphical representation of the Enterprise Life Cycle Framework modified from the Enterprise Life Cycle
Guide.

Enterprise Life Cycle Layers
The Enterprise Life Cycle is a framework for organizing and using IRS directives, processes,
procedures, templates, and standards to accomplish business change. It is organized as a set of
six interacting layers.
           •               The Management Layer specifies how to plan and control business change programs,
                           projects, acquisitions, and solutions throughout the Enterprise Life Cycle.
           •               The Governance Layer specifies additional controls imposed from outside the project or
                           program.
           •               The Solution Life Cycle Layer specifies what should be done but not how to do it.
           •               The Solution Layer manages the solution as it is produced, including providing
                           standards for consistent solution specification and formal review of solution content.
                           This Layer provides control over work products that may be produced by multiple
                           internal and external developers using differing methodologies.

                                                                                                                                                                        Page 33
                   While Improvements Continue in Contract Negotiation Methods
                      and Management Practices, Inconsistencies Need to Be
                                           Addressed


    •    The Methodology Layer details how to do the work and specifies a unique set of work
         products to be produced. Specific methodologies are not part of the Enterprise Life
         Cycle Framework.
    •    The Specialty Areas Layer provides additional guidance for areas of particular
         importance within the IRS. These areas include Enterprise Integration, Test, and
         Evaluation;1 Business Rules Harvesting2 and Management; Transition Management;3
         Enterprise Architecture; Capital Planning and Investment Control;4 Security and Privacy;
         and Requirements Development and Management.

Enterprise Life Cycle Paths
A path specifies a unique “philosophy” or orientation for performing the work. Although the
Enterprise Life Cycle specifies a standard for the work required to produce and operate business
change solutions, there are multiple ways to approach and accomplish the required work. Paths
are like alternate roads, each of which crosses different terrain, but all of which lead to the same
destination. The Enterprise Life Cycle provides five distinct paths or approaches to developing
systems:
    •    The Large Custom Path is for large projects.
    •    The Small Custom Path is for small projects.
    •    The Commercial-Off-the-Shelf Path is a commercial software-based approach.
    •    The Joint Application Development/Rapid Application Development Path is a highly
         accelerated, prototyping-based approach for very small, standalone solutions or solution
         components.




1
  Enterprise Integration, Test, and Evaluation includes processes for integrating multiple components of a solution
and conducting various types and levels of testing on the solution.
2
  A business rule is a statement that defines or constrains some aspect of the business. Harvesting is a general term
used to broadly describe the entire set of activities involved in gathering, formalizing, analyzing, and validating
business rules for a particular scope.
3
  Transition Management helps ensure personnel and organizations are prepared to receive, use, operate, and
maintain the business processes and technology provided by business change solutions.
4
  The Capital Planning Investment and Control process manages a central portfolio of information technology
investments across the IRS.
                                                                                                             Page 34
                  While Improvements Continue in Contract Negotiation Methods
                     and Management Practices, Inconsistencies Need to Be
                                          Addressed


    •   The Iterative Custom Path is a hybrid approach that combines elements of the other
        approaches.

Enterprise Life Cycle Phases and Milestones
A phase is a broad segment of work encompassing activities of similar scope, nature, and detail
and providing a natural breakpoint in the life cycle. Each phase begins with a kickoff meeting
and ends with an executive management decision point (called a milestone) at which IRS
executives make “go/no-go” decisions for continuation of a project. Project funding decisions
are often associated with milestones.
                  Figure 2: Enterprise Life Cycle Phases and Milestones
                                                     General Nature                       Concluding
              Phase                                      of Work                           Milestone
 Vision and Strategy/Enterprise   High-level direction setting. This is the only phase
                                                                                              0
 Architecture Phase               for enterprise planning projects.
 Project Initiation Phase         Startup of development projects.                            1
 Domain Architecture Phase        Specification of the operating concept, requirements,
                                                                                              2
                                  and structure of the solution.
 Preliminary Design Phase         Preliminary design of all solution components.              3
 Detailed Design Phase            Detailed design of solution components.                    4A
 System Development Phase         Coding, integration, testing, and certification of
                                                                                             4B
                                  solutions.
 System Deployment Phase          Expanding availability of the solution to all target
                                  users. This is usually the last phase for development       5
                                  projects.
 Operations and Maintenance       Ongoing management of operational systems.               System
 Phase                                                                                    Retirement
Source: The Enterprise Life Cycle Guide.




                                                                                                       Page 35
    While Improvements Continue in Contract Negotiation Methods
       and Management Practices, Inconsistencies Need to Be
                            Addressed


                                                   Appendix VII

Management’s Response to the Draft Report




                                                          Page 36
While Improvements Continue in Contract Negotiation Methods
   and Management Practices, Inconsistencies Need to Be
                        Addressed




                                                      Page 37
While Improvements Continue in Contract Negotiation Methods
   and Management Practices, Inconsistencies Need to Be
                        Addressed




                                                      Page 38
While Improvements Continue in Contract Negotiation Methods
   and Management Practices, Inconsistencies Need to Be
                        Addressed




                                                      Page 39
While Improvements Continue in Contract Negotiation Methods
   and Management Practices, Inconsistencies Need to Be
                        Addressed




                                                      Page 40
While Improvements Continue in Contract Negotiation Methods
   and Management Practices, Inconsistencies Need to Be
                        Addressed




                                                      Page 41
While Improvements Continue in Contract Negotiation Methods
   and Management Practices, Inconsistencies Need to Be
                        Addressed




                                                      Page 42
While Improvements Continue in Contract Negotiation Methods
   and Management Practices, Inconsistencies Need to Be
                        Addressed




                                                      Page 43
While Improvements Continue in Contract Negotiation Methods
   and Management Practices, Inconsistencies Need to Be
                        Addressed




                                                      Page 44
While Improvements Continue in Contract Negotiation Methods
   and Management Practices, Inconsistencies Need to Be
                        Addressed




                                                      Page 45
While Improvements Continue in Contract Negotiation Methods
   and Management Practices, Inconsistencies Need to Be
                        Addressed




                                                      Page 46
While Improvements Continue in Contract Negotiation Methods
   and Management Practices, Inconsistencies Need to Be
                        Addressed




                                                      Page 47
While Improvements Continue in Contract Negotiation Methods
   and Management Practices, Inconsistencies Need to Be
                        Addressed




                                                      Page 48
While Improvements Continue in Contract Negotiation Methods
   and Management Practices, Inconsistencies Need to Be
                        Addressed




                                                      Page 49
